           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      EMERGE, INCORPORATED, AN
   ORGANIZATIONAL REPRESENTATIVE
    PAYEE FOR THE SOCIAL SECURITY
           ADMINISTRATION


      March 2011   A-13-10-21087




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      March 31, 2011                                                             Refer To:

To:        Laurie Watkins
           Regional Commissioner
             Philadelphia

From:      Inspector General

Subject:   Emerge, Incorporated, an Organizational Representative Payee for the Social Security
           Administration (A-13-10-21087)


           OBJECTIVE
           Our objectives were to determine whether Emerge, Incorporated, (Emerge) as a
           representative payee for the Social Security Administration (SSA), (1) had effective
           safeguards over the receipt and disbursement of Social Security benefits and (2) used
           and accounted for Social Security benefits in accordance with SSA’s policies and
           procedures.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth and/or mental or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’
           payments. 1 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 2
           and/or Supplemental Security Income (SSI)3 beneficiaries4 when representative
           payments would serve the individual’s interests. 5 Representative payees are
           1
            Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii)(I); 42 U.S.C. §§ 405(j)(1)(A) and
           1383(a)(2)(A)(ii)(I).
           2
            The OASDI program provides benefits to qualified retired and disabled workers and their dependents as
           well as to survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           3
            The SSI program provides payments to individuals who have limited income and resources and who are
           age 65 or older, blind, or disabled. Social Security Act §1601 et seq.; 42 U.S.C. 1381 et seq.
           4
             We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
           5
               20 C.F.R. §§404.2001 and 416.601.
Page 2 – Laurie Watkins


responsible for managing benefits in the best interest of the beneficiary. See
Appendix B for additional representative payee responsibilities.

Founded in 1976, Emerge is a nonprofit organization that serves as an organizational
representative payee in Columbia, Maryland. Emerge focuses on serving individuals
with developmental, physical, and mental health disabilities. Emerge provides
residential, employment, and day services 6 to beneficiaries.

During our audit period, November 1, 2008 to October 31, 2009, Emerge served as
representative payee for 209 beneficiaries. Of the 209, we selected a sample of
50 beneficiaries for review. During our review period, we determined the payee
received approximately $500,000 in Social Security benefits for the 50 beneficiaries.
See Appendix C for the scope and methodology of our review.

RESULTS OF REVIEW
Generally, Emerge had effective safeguards over the receipt and disbursement of
Social Security benefits and used and accounted for Social Security benefits in
accordance with SSA’s policies and procedures. However, we found instances where
Emerge could improve its performance as a payee. Specifically, we found Emerge did
not

•    notify SSA when one beneficiary left its care,

•    report to SSA that beneficiaries exceeded the resource limit for SSI payments,

•    maintain burial funds in a separate bank account,

•    repay overpayments that occurred because of the death of two beneficiaries, or

•    complete a Representative Payee Report (RPR) for one beneficiary.

Finally, we found two beneficiaries earned significant wages that resulted in
overpayments.




6
 On its Internet site, Emerge reports it offers an array of employment options for individuals with
disabilities. Its Day Program provides services to individuals who are older and no longer wish to work.
http://emergeinc.org/
Page 3 – Laurie Watkins


SSA Not Notified When Beneficiary Left Payee’s Care

Emerge did not notify SSA until May 2009 that one beneficiary had left its care in
July 2007. When the beneficiary left Emerge’s care, the payee did not return $91,089 in
conserved funds 7 to SSA. Instead, Emerge retained the conserved funds and received
$21,460 in OASDI benefits for this beneficiary from July 2007 to April 2009.

Federal regulations require that representative payees notify SSA of any changes that
would affect their performance as a representative payee. 8 Emerge notified SSA that it
was no longer serving as representative payee approximately 2 years after the
beneficiary left its care.

Representative payees are required to complete an RPR9 each year. Emerge did not
file the applicable RPR for the year ended March 31, 2008. On May 5, 2009, it filed an
RPR that covered the reporting period ended March 31, 2009. That RPR stated the
beneficiary left Emerge’s care in 2007. An Emerge official reported that a staff member
informed SSA about the beneficiary leaving its care before it submitted the RPR.
However, the official did not provide evidence to support this statement or identify a
specific date for notification. Agency information did not indicate SSA was aware this
beneficiary left Emerge’s care before receiving the RPR in May 2009.

Emerge did not return the conserved funds—totaling $112,549—to SSA. Instead,
Emerge transferred the beneficiary’s funds to a nonprofit organization that would later
become the beneficiary’s new payee. At that time, Agency policy stated, “A
representative payee who has conserved or invested funds for a beneficiary, but is no
longer serving as payee for the beneficiary, must return the funds to SSA for reissuance
to either the successor payee or to the beneficiary in direct payment.” 10

According to Emerge staff, the funds were transferred to the organization that would
later become the beneficiary’s new payee. Staff reported the funds that were
transferred to the organization were used to purchase the beneficiary’s residence. Our
review of public records confirmed a condominium was purchased in the beneficiary’s
name on June 4, 2008. An Emerge official explained new procedures were developed


7
 Conserved funds are unspent or saved Social Security payments. Representative payees generally
maintain recipients’ unspent or saved Social Security payments in bank accounts. 20 C.F.R. §§ 404.2045
and 416.645.
8
    20 C.F.R. §§ 404.2035 and 416.635.
9
 The RPR is intended to assist SSA in determining the payee’s use of a beneficiary’s Social Security
payments for a 12-month period. Generally, SSA issues an RPR to representative payees if benefits
were paid during the 12-month period. SSA, POMS GN 00605.001 B(1).
10
  SSA, POMS, GN 00603.055 was in effect until December 5, 2010. SSA’s policy was modified on
December 6, 2010 to state, “SSA may permit a former payee to transfer conserved funds directly to a new
payee or to a capable beneficiary rather than returning them to SSA if it serves the best interest of the
beneficiary. SSA will allow such transfers on a case-by-case basis.”
Page 4 – Laurie Watkins


to ensure timely reporting of beneficiaries’ leaving the payee’s care and ensure the
return of beneficiaries’ conserved funds to SSA.

We discussed the payee’s actions with SSA. In July 2009, SSA appointed the nonprofit
organization as the beneficiary’s new representative payee.

Beneficiaries Exceeded Resource Limit for SSI Payments

Emerge did not inform SSA that some beneficiaries’ resources exceeded the resource
limit 11 established for individuals receiving SSI payments. The representative payee is
responsible for informing SSA when beneficiaries’ resources exceed the allowable
limit. 12 We identified 12 beneficiaries who exceeded the SSI resource limit and, as a
result, received approximately $29,000 13 in SSI overpayments during our audit period.
SSI overpayments can occur when (1) a beneficiary’s resources 14 exceed the resource
limit because of changes in the beneficiary’s circumstances that affect eligibility for
benefits 15 or (2) the representative payee is improperly conserving benefits by not
spending the funds on the beneficiary’s current and foreseeable needs. 16

In September 2008, an SSA site review of the payee found that some beneficiaries had
exceeded SSI resource limits. SSA found four beneficiaries whose conserved funds
exceeded the $2,000 resource limit for SSI payments. These beneficiaries exceeded
the resource limit at various times between May 2007 and April 2008.

We discussed the 12 beneficiaries’ overpayments with Emerge staff. Staff
acknowledged that some beneficiaries’ accounts exceeded resource limits.

We discussed the SSI overpayments with SSA and provided information concerning the
12 beneficiaries and their associated overpayments. SSA subsequently confirmed
overpayments of approximately $29,000 occurred for the period November 1, 2008 to
October 31, 2009. On December 9, 2010, Agency staff stated all overpayments had


11
  The resource limit for SSI recipients is $2,000 for an individual and $3,000 for a married couple. See
20 C.F.R. § 416.1205(c) and SSA, POMS, SI 01110.003.A.2.
12
  20 C.F.R. §§ 416.704(c), 416.708(d), 416.635(d) and GN 00502.113.C.1; SSA, Guide for
Organizational Representative Payees – What Changes Must You Report to SSA?
13
     We calculated the overpayment to be $29,329.
14
  SSA, POMS, SI 01110.100. Resources are cash and any other personal property that an individual
owns, has the right, authority, or power to convert to cash, and is not legally restricted from using for
his/her support maintenance.
15
  Changes in a beneficiary’s circumstances that affect eligibility for benefits include new living
arrangements, marriage, divorce, incarceration, and employment earnings. See 20 C.F.R. §§ 416.635(d)
and 416.708; SSA, POMS, GN 00502.113.C.1.
16
     SSA, POMS, GN 00602.130.A and GN 00603.001.B.2.
Page 5 – Laurie Watkins


either been collected or were being recovered. We did not independently verify that the
overpayments were collected.

Burial Funds Not Maintained in Separate Bank Account

Emerge did not maintain a separate bank account for burial funds,17 as required by SSA
policy. 18 A maximum of $1,500 in funds can be set aside for burial expenses of
beneficiaries receiving SSI payments. SSA policy states burial funds may be
commingled with burial-related assets but must be kept separate from non-burial-related
assets. Within the policy, SSA cites a bank account containing funds designated for
burial and living expenses as an example of an unallowable practice. 19

During our audit period, Emerge deposited all Social Security payments into one bank
account. From this account, the payee paid various expenses—which could have
included burial expenses. Emerge used a separate general ledger account to record
and monitor beneficiaries’ burial funds. As of April 2010, the burial fund general ledger
account, which totaled approximately $20,800, included burial funds for
33 beneficiaries. 20 Since Emerge did not maintain burial funds in a separate bank
account, these funds could be considered resources. As a result, it is possible SSI
overpayments occurred.

We discussed the accounting of burial funds with Emerge staff and SSA. An Emerge
official indicated he was unaware of SSA’s policy prohibiting commingling of burial funds
with funds used for other expenses. As of November 3, 2010, SSA had not taken action
regarding the payee’s accounting of burial funds. When SSA takes follow-up action on
this issue with the payee, it may include determining whether the amount of money set
aside for burial expenses can be excluded from beneficiaries’ resources. SSA’s policy
states burial funds must be kept separate from non-burial-related assets to be excluded
from resources. If burial funds are commingled with non-burial-related assets, the
exclusion does not apply. 21 On November 30, 2010, an Emerge official stated a
separate bank account was established for burial funds. However, we did not
independently verify that the burial account was established in accordance with SSA
policy.



17
  Burial funds are revocable burial contracts, revocable burial trusts, other revocable burial
arrangements, cash, financial accounts, or other financial instruments with a definite cash value. The
funds must be clearly designated for the individual or spouse’s burial, cremation, or other burial-related
expenses. SSA, POMS, SI 01130.410.B.1.
18
     SSA, POMS, SI 01130.410 C.3.
19
     Id.
20
   Excluding the burial funds, we previously identified 2 of the 33 beneficiaries as exceeding resource
limits for SSI payments.
21
     SSA, POMS, SI 01130.410 C.3a.
Page 6 – Laurie Watkins


Overpayments to Deceased Beneficiaries

During our audit, we identified overpayments made to deceased beneficiaries. In
November 2009, SSA’s records indicated payments were issued to Emerge after four
beneficiaries’ deaths. For two beneficiaries, Emerge repaid the overpayments.
However, as of October 2010, Emerge had not repaid the SSI overpayments for the
remaining two beneficiaries.

SSA’s data indicated the overpayment pertaining to one beneficiary was deemed
uncollectible, and the overpayment for the other beneficiary was waived. Table 1 shows
these overpayments.

                   Table 1: SSI Overpayments After Death of Beneficiaries
                                                           Date
                           Action Taken by            Waived/Deemed               Amount of
       Beneficiary               SSA                   Uncollectible            Overpayment 22
                               Deemed
      Beneficiary 1          Uncollectible           December 18, 2008                $1,339
      Beneficiary 2             Waived                January 26, 2009                   679
     Total                                                                            $2,018

We questioned SSA’s decisions not to collect the $2,018 in overpayments. We believe
Emerge was financially able to repay these funds and should return the overpayments
to SSA. If payments are received after the death of a beneficiary and they are not due,
the representative payee must return the money to SSA. 23

On October 22, 2010, we discussed these collection actions with SSA staff. Although
the overpayments associated with one beneficiary were deemed uncollectible, staff
explained the Agency could nonetheless take action to collect the overpayment. On
October 25, 2010, a follow-up notice was issued to collect the SSI overpayment from
the payee. For the remaining overpayment, SSA staff explained that they were unable
to locate documentation for the waiver or provide further information. On
November 30, 2010, an Emerge official stated the $2,018 was repaid to SSA for the two
beneficiaries. The official also stated Emerge was repaying $2,608 for another
beneficiary who died in October 2010.




22
  The amount for “Beneficiary 1” is the total for several monthly benefit payments. The amount for
“Beneficiary 2” is a single monthly benefit payment.
23
  SSA, Guide for Organizational Representative Payees – Checks Received After the Death of a
Beneficiary.
Page 7 – Laurie Watkins


RPR Not Completed for a Beneficiary

Emerge did not complete an RPR for one beneficiary for the reporting period
July 1, 2008 through June 30, 2009. 24 SSA is required to obtain an annual accounting
from all representative payees. 25 Representative payees are responsible for keeping
records and reporting the use of benefits by completing an RPR annually. 26 The RPR is
intended to assist SSA in determining the (1) use of benefits during the preceding
12-month reporting period; (2) payee’s continuing suitability; and (3) continuing need for
representative payment. If the payee’s responses warrant concern, SSA should contact
the payee to determine its continued suitability.

According to SSA, Emerge received $41,491 27 in benefits during this period on behalf of
the beneficiary. Since Emerge did not complete the RPR, the Agency could not monitor
the benefit payments for this period. However, for our audit period, nothing came to our
attention that indicated the benefit payments were not used in this beneficiary’s best
interests.

The RPR was sent to Emerge in January 2010; however, SSA did not receive the
completed RPR from Emerge. On August 18, 2010, we notified Emerge staff that SSA
did not receive the report. Emerge staff stated they were unaware the report was not
submitted. Emerge staff also stated they would contact the SSA field office and
complete the report. However, as of March 28, 2011, SSA’s systems did not indicate
the applicable RPR had been submitted.

On October 21, 2010, we discussed this matter with SSA staff. According to staff, as a
“non-responder” representative payee—a payee that fails to submit the RPR—the field
office would send a follow-up notice to Emerge. On October 26, 2010, SSA staff sent a
follow-up notice to Emerge.

Earned Wages Resulted in Overpayments

We found two beneficiaries receiving SSI payments had significant earned wages. One
beneficiary had earnings of over $22,000 each year in 2008 and 2009. The other
beneficiary had earnings in excess of $17,000 in 2008 and about $8,000 in 2009.


24
   We identified an additional beneficiary for whom the payee did not complete an RPR. As previously
discussed, Emerge did not timely report to SSA that the beneficiary had left its care. Further, we are
conducting a separate review of Annual Representative Payee Report Non-Responders (A-06-10-11069)
to determine whether SSA takes appropriate action when representative payees fail to account for their
use of benefits.
25
  42 U.S.C. §§ 405(j)(3)(A) and 1383(a)(2)(C)(i), 20 C.F.R. §§ 404.2065, 416.665, SSA, POMS, GN
00605.090, SSA, Guide for Organizational Representative Payees – How often do I have to report to SSA
on how funds have been used?
26
     SSA, POMS, GN 00605.001.
27
     This includes an approximately $36,000 retroactive payment.
Page 8 – Laurie Watkins


According to SSA policy, a beneficiary’s income from wages is considered “countable
income” and is part of the calculation of a beneficiary’s monthly SSI payment. 28
According to SSA staff, the Agency generally verifies wages paid to the beneficiary and
estimates future wages for any month in which a change of income has occurred or
during a redetermination of benefits.

The beneficiaries’ earned wages resulted in overpayments. According to SSA’s
records, an overpayment of approximately $17,000 was posted on August 31, 2009 to
one beneficiary’s record. 29 An overpayment of about $1,500 was posted to the other
beneficiary’s record on September 20, 2010. On October 21, 2010, the Agency
reported the overpayments were identified at the conclusion of the redetermination
process, and were the result of underestimated wages. An Emerge official confirmed
being aware of the wages earned but unaware the wages should be reported to SSA
each month. SSA requires that representative payees report wages for any months the
income has changed. 30

In December 2010, we asked SSA staff whether these two beneficiaries still needed a
representative payee. Staff explained that, generally, SSA does not use significant
wages as a basis for re-evaluating whether a beneficiary needs a payee. Staff
explained that earning a significant wage does not necessarily indicate that the
beneficiaries are capable of managing money or adequately taking care of their own
needs. However, if the issue is raised by the beneficiary, payee, or anyone else, SSA
would perform a capability determination.

CONCLUSION AND RECOMMENDATIONS
Generally, we found Emerge had effective safeguards over the receipt and
disbursement of Social Security benefits and used and accounted for Social Security
benefits in accordance with SSA’s policies and procedures. However, we found
instances where Emerge could improve its performance as a payee. There was an
instance where Emerge did not return conserved funds to SSA when it was no longer
serving as the representative payee for the beneficiary. There were also instances
where Emerge did not monitor conserved funds to ensure beneficiaries stayed below
resource limits. In addition, Emerge did not maintain burial funds in a separate bank
account. We found instances where Emerge did not return overpayments for deceased
beneficiaries and did not always complete RPRs. Lastly, we found Emerge had two
beneficiaries in its care who earned significant wages, which resulted in overpayments.



28
     SSA, POMS, SI 00810.300.
29
  The beneficiary’s SSI payments were being offset to collect the overpayment. However, as of
November 2010, the beneficiary is not receiving SSI payments because countable income exceeds SSI
payment amounts.
30
  SSA, POMS, SI 00820.143, effective November 9, 2010, updated the Agency’s policy from
encouraging monthly wage reporting to requiring it.
Page 9 – Laurie Watkins


We recommend that SSA:

1. Instruct Emerge to (a) notify the Agency timely when a beneficiary is no longer in its
   care and (b) return benefit payments and conserved funds to SSA when no longer
   serving as representative payee for a beneficiary.

2. Pursue collection of the overpayments that resulted from SSI recipients’ account
   balances exceeding the $2,000 maximum allowed—either from the beneficiaries if
   their conserved funds still exceed the maximum; or from Emerge if, by its insufficient
   monitoring, the representative payee should be held accountable.

3. Instruct Emerge to (a) monitor beneficiaries’ resources and (b) inform the Agency in
   a timely manner when beneficiaries receiving SSI payments have conserved funds
   that exceed resource limits.

4. Verify that Emerge established a separate bank account for burial funds, in
   accordance with Agency policy.

5. Determine whether SSI overpayments occurred as a result of the method Emerge
   used to account for burial funds, and collect overpayments, as applicable.

6. Verify that Emerge repaid SSI overpayments for deceased beneficiaries.

7. Remind Emerge to complete and submit RPRs for the beneficiaries it serves in a
   timely fashion.

8. Remind Emerge of its monthly reporting responsibilities on behalf of beneficiaries for
   any significant wages earned, to avoid or reduce overpayments.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D).

OTHER MATTER
While conducting our review, we found SSA did not issue RPRs for three beneficiaries
receiving OASDI benefits under their parents’ records. For the period November 1,
2008 to October 31, 2009, we could not locate RPRs for all beneficiaries served by the
payee. Emerge staff indicated they had no record of receiving RPRs from SSA for
these three beneficiaries. SSA staff confirmed the Agency did not generate RPRs for
these individuals. Table 2 shows the periods SSA did not issue the RPRs, but Agency
records indicate benefit payments were issued.
Page 10 – Laurie Watkins


               Table 2: SSA Benefits Paid But Not Monitored by SSA
                               No Representative Payee        SSA Benefits
             Beneficiary            Report Issued                Paid
           Beneficiary A        6/1/2004 to 10/31/2009          $40,047
           Beneficiary B        7/1/1995 to 10/31/2009            82,782
           Beneficiary C        6/1/1995 to 10/31/2009          112,275
           Total                                                $235,104

We examined SSA’s records to identify commonalities among the three beneficiaries.
We found all three beneficiaries initially received SSI payments. These payments
ended, and the beneficiaries received OASDI benefits during our audit period,
November 1, 2008 to October 31, 2009.

In August 2010, Agency staff advised us that RPRs were not generated for the three
beneficiaries because of a computer programming problem. Payees that served these
beneficiaries did not report how the OASDI benefits were used. For our audit period,
we determined that the benefit payments for these three beneficiaries were used in
accordance with SSA’s policies and procedures. However, since SSA had not received
RPRs for these three beneficiaries in several years, it had not been determining
whether the Social Security payments were used in the beneficiaries’ best interest.

On October 19, 2010, SSA staff reported adjusting information recorded in the Agency’s
information system for two of the three beneficiaries and stated the adjustments will
result in RPRs being issued to the payee. On November 18, 2010, SSA provided us
with the RPR that was generated for one beneficiary for the reporting period November
2009 through December 2010. However, as of December 29, 2010, an RPR was not
generated for the second beneficiary. For the third beneficiary, SSA staff indicated the
non-issuance of the RPR was “an anomaly.” The Agency did not indicate the total
number of representative payees not sent RPRs.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RPR      Representative Payee Report
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                         Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include: 1

    •     Determine the beneficiary’s current needs for day-to-day living and use his or her
          payments to meet those needs.

    •     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

    •     Maintain accounting records of how the benefits are received and used.

    •     Report events to the Social Security Administration (SSA) that may affect the
          individual’s entitlement or benefit payment amount.

    •     Report any changes in circumstances that would affect their performance as a
          representative payee.

    •     Provide SSA an annual Representative Payee Report to account for benefits
          spent and invested.

    •     Return any payments to SSA to which the beneficiary is not entitled.

    •     Return conserved funds to SSA when no longer serving as the representative
          payee for the beneficiary.

    •     Be aware of any other income that Supplemental Security Income recipients may
          have and monitor their conserved funds to ensure they do not exceed resource
          limits.




1
    20 C.F.R. §§ 404.2001 et.seq. and 416.601 et.seq.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period November 1, 2008 through October 31, 2009. To
accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

•   Compared and reconciled the payee’s list of SSA beneficiaries in Emerge,
    Incorporated’s, (Emerge) care to a list obtained from SSA’s Representative Payee
    System.

•   Reviewed Emerge’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Randomly selected a sample of 50 beneficiaries from a population of
    209 beneficiaries who were in Emerge’s care during our audit period.

•   Selected a sample of 50 beneficiaries in Emerge’s care during the audit period and
    performed the following tests.

     Compared and reconciled benefit amounts received according to Emerge’s
      records to benefit amounts paid according to SSA’s records.

     Reviewed Emerge’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.

     Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

•   Visited and interviewed 21 beneficiaries to determine whether their basic needs
    were being met. Further, we visited and interviewed 11 of the 21 beneficiaries at
    their workplaces to determine whether working conditions were adequate.

•   Obtained either Request to be Selected as Payee (Form SSA-11-BK) or other
    documentation that indicated that SSA considered Emerge to be the representative
    payee for 47 beneficiaries and reviewed 5 Representative Payee Applications (Form
    SSA-11-BK) to determine the completeness and appropriateness of the information
    provided on the applications.


                                           C-1
•   Selected 30 beneficiaries to determine the completeness and appropriateness of the
    information provided on the Representative Payee Reports (SSA-6234). 1

•   Reviewed SSA records for 10 beneficiaries to determine whether SSA was aware of
    the beneficiaries’ wages and whether those wages would impact the amount of
    benefits paid.

•   Determined whether the organization was complying with its policies, and those set
    by SSA, for protecting personally identifiable information.

We performed our audit in Woodlawn and Columbia, Maryland, between February and
December 2010. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our audit objectives. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




1
  Of the 30, we reviewed Representative Payee Reports for 26 beneficiaries. For the remaining
four beneficiaries, SSA did not issue reports to the payee for three beneficiaries; and the report for one
beneficiary was not completed for the audit period.

                                                    C-2
                                                                             Appendix D

Agency Comments

March 07, 2011

Subject: Philadelphia Reply: Signed Formal Draft (A-13-10-21087)


The Philadelphia region appreciates the opportunity to offer our feedback on this formal draft of
the audit concerning Emerge, Incorporated.

We concur with all of OIG’s findings and recommendations contained within this draft. We
would like to add that Emerge Incorporated will be undergoing a mandatory 3 year triennial
review later this year. As part of this review, we will make sure the reviewing team is aware of
the audit’s recommendations and the status of Emerge’s compliance with those
recommendations. Special attention will be paid to remind Emerge of their reporting
responsibilities and duties as an organizational payee.

If you or any of your staff have any questions regarding this response, please contact Michael
Sparks in the Center for Program Support at 215-597-2239.

Mary Horne
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Florence Wolford, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Donna Parris, Auditor-In-Charge

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-10-21087.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
